   July 22, 2002




Supply Inventory
Management
Terminal Items Managed by
the Defense Logistics Agency
for the Navy
(D-2002-131)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this audit report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AAC                   Acquisition Advice Code
DLA                   Defense Logistics Agency
DIIP                  Defense Inactive Item Program
DLIS                  Defense Logistics Information Service
FLIS                  Federal Logistics Information System
NSN                   National Stock Number
NATO                  North Atlantic Treaty Organization
SAMMS                 Standard Automated Materiel Management System
          Office of the Inspector General of the Department of Defense
Report No. D-2002-131                                                        July 22, 2002
   (Project No. D2001LD-0128.001)

         Terminal Items Managed by the Defense Logistics Agency
                             for the Navy

                                    Executive Summary

Who Should Read This Report and Why? DoD personnel who are involved in
materiel management should read this report. The report discusses compliance with
procedures used to ensure that obsolete terminal national stock number (NSN) items are
deleted from the Defense Logistics Agency (DLA) supply system.

Background. This report, the second in a series of reports on terminal NSN items,
discusses terminal NSNs managed by the DLA for the Navy. Inspector General of the
Department of Defense Report No. D-2002-060, “Management of Terminal Items at the
Defense Logistics Agency,” March 13, 2002, discusses DLA management of terminal
NSNs with no user interest.

DLA supply centers manage more than 4.1 million NSN items. NSN items that are
terminal are those stocked and non-stocked items managed by DLA that are not
authorized for future procurement. An NSN is generally classified as terminal when
either there is no known source of supply for the NSN or the NSN is replaced by another
NSN. A terminal item is considered inactive, or obsolete, if there are no current or future
requirements anticipated by any registered user or by the integrated materiel manager of
the NSN. As of May 2001, DLA supply files included 53,455 terminal NSNs, excluding
the clothing and textile, medical, and subsistence commodities, that had the Navy as the
only registered user. Data records indicated that the “date of last demand” field for those
53,455 NSNs either had no demand for more than 5 years or was blank.

Results. DLA supply files contained NSNs that could have been deleted because the
NSNs supported obsolete Navy requirements. DLA supply files also contained
inaccurate Navy user data. A stratified statistical sample of 110 NSNs indicated that
28,023 of 53,455 terminal NSNs were obsolete and actions had not been taken to delete
the NSNs from the DLA supply system. The sample also indicated that an additional
8,384 of the 53,455 NSNs were obsolete to Navy requirements, but actions needed to be
taken to determine whether there were North Atlantic Treaty Organization or foreign
government requirements before the NSNs could be deleted. As a result, DLA and the
Navy were incurring unnecessary supply management costs. We projected that the Navy
could put about $69 million of funds to better use over the 6-year Future Years Defense
Program, FYs 2002 through 2007, by removing the obsolete terminal NSNs identified by
this audit from the Navy supply files. The full extent of the monetary benefits will be
quantifiable after the same obsolete NSNs are deleted from DLA supply files and after
NSNs with no North Atlantic Treaty Organization or foreign government requirements
are identified and deleted from both the Navy and DLA supply systems. Revised DLA
procedures for the review of terminal items and controls to remove the Navy as a
registered user of DLA-managed obsolete terminal NSNs should ensure that obsolete
terminal NSNs are deleted from the supply system. (See the Finding section of the report
for the detailed recommendations.)

Management Comments and Audit Response. DLA nonconcurred with the
recommendations. DLA stated that including in the Defense Inactive Item Program those
terminal items that are in an issue and substitutability standardization relationship would
duplicate an existing cancellation process. DLA also stated that because nominal costs
are incurred to maintain terminal items in the supply system, there is no benefit to be
gained from deleting data on terminal NSNs that may be supporting North Atlantic
Treaty Organization or foreign government requirements. The DLA comments were
partially responsive. All terminal NSNs do not have an issue and substitutability
standardization relationship and, therefore, not all terminal NSNs are subject to the
existing cancellation process. Additionally, it is apparent that the existing cancellation
process is not working as intended because only one of the eight obsolete terminal NSNs
in our sample with an issue and substitutability standardization relationship had been
canceled. DLA also provided no valid data to support its statement that terminal NSNs
maintained in the supply system incur only minimal costs. To the contrary, DLA
reported cost avoidance under its item reduction program of approximately $89 million
for the 10-year period ending FY 2001 that was attributed to deleting unneeded items
from its supply system. The Navy concurred with the recommendation but nonconcurred
with the estimated $69 million of potential monetary benefits. Regarding the
recommendation, the Navy stated that actions were taken to remove the Navy as a
registered user of obsolete DLA-managed NSNs. Regarding the $69 million of potential
monetary benefits, the Navy stated that, based on a DLA cost study, the cost to maintain
an obsolete terminal NSN in the supply system is minimal. The Navy comments were
responsive to the recommendation but not in regard to the potential monetary benefits.
The DLA cost study is not pertinent to cataloging costs incurred by the Navy to maintain
an NSN in the Navy supply system. We computed the estimated benefits based on Navy
cataloging cost data in a Navy study and the Navy had concurred with our use of the
cataloging cost data in response to a prior audit report. See the Finding section of the
report for a discussion of management comments and the Management Comments
section for the complete text of the comments. We request that DLA and the Navy
provide additional comments on the final report by September 20, 2002.




                                            ii
Table of Contents

Executive Summary                              i


Background                                    1


Objectives                                    2


Finding
     Terminal Items With Navy Interest        3

Appendixes
     A. Scope and Methodology                 10
          Management Control Program Review   12
          Prior Coverage                      13
     B. Report Distribution                   14

Management Comments
     Defense Logistics Agency                 17
     Department of the Navy                   20
Background

    This report, the second in a series of reports on terminal national stock
    number (NSN) items, discusses terminal NSNs managed by the Defense Logistics
    Agency (DLA) for the Navy. Inspector General of the Department of Defense
    Report No. D-2002-060, “Management of Terminal Items at the Defense
    Logistics Agency,” March 13, 2002, discusses DLA management of terminal
    NSNs with no user interest.

    Materiel Management. DLA supply centers are assigned the primary
    responsibility for materiel management for a group of items used by either a
    particular Service or by DoD as a whole. Materiel management responsibilities
    include cataloging,∗ requirements computation, procurement direction,
    distribution management, and disposal direction. DLA supply centers manage
    more than 4.1 million NSN items.

    DoD Guidance. DoD Manual 4100.39-M. “Federal Logistics Information
    System (FLIS) Procedures Manual,” April 1999, provides procedures for DoD
    organizations to interface with the FLIS. The FLIS is a management system
    designed to collect, store, process, and provide NSN logistics information.
    Included in the FLIS is information concerning registered users of NSNs. The
    FLIS is managed by the DLA Defense Logistics Information Service (DLIS),
    Battle Creek, Michigan. DoD Manual 4100.39-M defines terminal NSNs as
    stocked and non-stocked items that are not authorized for future procurement.

    DoD Manual 4140.32-M, “Defense Inactive Item Program (DIIP),” August 1992,
    provides procedures for the systematic elimination of inactive, or obsolete, NSNs
    from the DLA supply system and states that items no longer needed to support the
    mission of DoD organizations, other Federal agencies, or the International
    Logistics Program needlessly consume cataloging and supply system files,
    machine time, personnel resources, and warehouse space with serious effect on
    the total supply system. DoD managers at every level are expected to place
    serious and continuous emphasis on the purging of unneeded items from the
    materiel inventory and active catalog files.



    DLA Procedures. DLA Manual 4140.2, “Supply Operations Manual,”
    July 1, 1999, provides policy, uniform guidance, and procedures for DLA supply
    ∗
        The act of naming, classifying, describing, and numbering each item repetitively used,
        purchased, stocked, or distributed so as to distinguish each item from every other item. Also
        included is the maintenance of information related to the item and the dissemination of that
        information to item users.



                                                  1
    centers to systematically review and eliminate inactive items of supply from the
    DLA supply system. An item is considered inactive, or obsolete, if there are no
    current or future requirements anticipated by any registered user or by the
    integrated materiel manager of the NSN. The manual requires that the
    commander of each supply center designate a DIIP monitor to act as the focal
    point for all matters concerning the DIIP. DIIP monitor responsibilities include
    initiating timely actions to delete obsolete items from the DLA supply system
    after user interest has been withdrawn.

    Terminal NSNs. NSN items that are terminal are those stocked and non-stocked
    items managed by DLA that are not authorized for future procurement. An NSN
    is generally classified as terminal when either there is no known source of supply
    for the NSN or the NSN is replaced by another NSN. DLA uses acquisition
    advice codes (AACs) to indicate how and under what restrictions NSNs will be
    acquired. NSNs assigned an AAC of V or Y are coded as terminal. AAC-V
    identifies terminal NSNs with DLA inventory. AAC-Y identifies terminal NSNs
    with no DLA inventory. As of May 2001, DLA supply files included
    53,455 terminal NSNs, excluding the clothing and textile, medical, and
    subsistence commodities, that had the Navy as the only registered user. Data
    records indicated that the “date of last demand” field for those 53,455 NSNs
    either had no demand for more than 5 years or was blank.


Objectives

    The overall audit objective was to evaluate DLA management of terminal NSN
    items. This report addresses the terminal NSNs managed by DLA for the Navy.
    We also reviewed the management control programs as they applied to the audit
    objective. See Appendix A for a discussion of the audit scope and methodology,
    our review of the management control program, and prior audit coverage.




                                         2
           Terminal Items With Navy Interest
           DLA supply files contained NSNs that could have been deleted because
           the NSNs supported obsolete Navy requirements. DLA supply files also
           contained inaccurate Navy user data. A stratified statistical sample of
           110 NSNs indicated that 28,023 of 53,455 terminal NSNs were obsolete
           and actions had not been taken to delete the NSNs from the DLA supply
           system. The sample also indicated that an additional 8,384 of the
           53,455 NSNs were obsolete to Navy requirements, but actions needed to
           be taken to determine whether there were North Atlantic Treaty
           Organization (NATO) or foreign government requirements before the
           NSNs could be deleted. The NSNs were not reviewed for obsolescence
           because DLA guidance excluded terminal NSNs from the DIIP and there
           was no management control to systematically identify terminal NSNs for
           item manager review. In addition, the Navy did not routinely review and
           withdraw itself as a user of the terminal NSNs. As a result, DLA and the
           Navy were incurring unnecessary supply management costs. We
           projected that the Navy could put about $69 million of funds to better use
           over the 6-year Future Years Defense Program, FYs 2002 through 2007,
           by removing the obsolete terminal NSNs identified by this audit from the
           Navy supply files. The full extent of the monetary benefits will be
           quantifiable after the same obsolete NSNs are deleted from DLA supply
           files and after NSNs with no NATO or foreign government requirements
           are identified and deleted from both the Navy and DLA supply systems.


DIIP Process

    Each year, the DLA Standard Automated Materiel Management System
    (SAMMS) screens all NSNs in the DLA supply centers’ supply files to determine
    the NSNs that are eligible for the DIIP. Two criteria for determining eligible
    NSNs are that the NSN has been in the Federal supply system for 7 years and that
    the NSN has experienced no demand in the past 2 years. After eligible NSNs
    have been identified, SAMMS screens the NSNs against catalog and supply data
    to determine whether the NSNs qualify for the DIIP. NSNs are excluded from the
    DIIP for various reasons, including when an NSN is assigned an AAC of either
    V or Y (terminal items). NSNs that qualify for the DIIP are sent to the DLIS to
    query FLIS user data. NSNs with registered users, primarily the Military
    Departments, qualify for the DIIP and are referred to the Military Departments to
    review the NSNs and notify the supply centers to either delete or retain the NSNs.




                                        3
Review of Terminal NSNs

    DLA supply files contained terminal NSNs that were obsolete to Navy
    requirements. We reviewed a statistical sample of 110 of 53,455 terminal NSNs
    with the Navy as the only registered user. We discussed each NSN with Navy
    personnel to determine whether the Navy had a valid requirement for the NSN.
    We also discussed the NSNs that had no valid Navy requirements with DLA
    personnel to determine whether the NSNs could be deleted from the supply
    system.

    Of the 110 NSNs in our sample, 57 were obsolete and the NSNs could be deleted
    from the supply system. For 49 of the obsolete NSNs, Navy personnel stated that
    the NSNs were obsolete because either they were no longer used on an active
    weapon system or the end item or weapon system the NSNs were used on were
    obsolete. For the remaining eight NSNs, Navy personnel stated that each of the
    NSNs had been replaced by another NSN. An NSN item that has been replaced
    by another NSN item should generally not be considered obsolete until all DLA
    assets for the NSN are issued. Our review of DLA supply records showed that
    there were no DLA assets on hand for the eight NSNs that had been replaced. We
    projected the 57 terminal NSNs across the universe of 53,455 terminal NSNs and
    estimated that 28,023 terminal NSNs should have had actions taken to delete them
    from the supply system. Appendix A provides a detailed discussion of the
    sampling methodology and projected audit results.

    Navy personnel identified an additional 19 NSNs in our sample that were obsolete
    to Navy requirements; however, the NSNs required NATO or foreign government
    review before the NSNs could be deleted from the supply system. We projected
    the 19 terminal NSNs across the universe of 53,455 terminal NSNs and estimated
    that 8,384 terminal NSNs were obsolete to Navy requirements but required
    NATO or foreign government review before the NSNs could be deleted from the
    supply system.


DLA Management Controls

    DLA did not review terminal NSNs for obsolescence primarily because
    DLA Manual 4140.2 excluded terminal NSNs from the DIIP and there was no
    management control to systematically identify for item managers terminal NSNs
    that should be reviewed for obsolescence. DLA item managers stated that
    reviewing terminal NSNs was not a high priority and they concentrated on
    managing NSNs that had current or future requirements. Item managers also
    stated that SAMMS did not provide recurring reports to them to identify terminal
    NSNs and the length of time the NSNs had been in a terminal status. Navy


                                        4
     personnel stated that had terminal NSNs been included in the DIIP, they would
     have submitted transactions to withdraw the Navy as a user of the NSNs.


Withdrawal of User Interest

     DLA supply files contained inaccurate Navy user information because the Navy
     had not withdrawn itself as a registered user of the obsolete NSNs.

     DLA Supply Files. DLA supply records showed the Navy as a registered user
     for each of the 76 NSNs that were obsolete to Navy requirements. In accordance
     with DoD Manual 4100.39-M, when a registered user no longer has a requirement
     for an NSN, the user must submit a transaction through the FLIS requesting a
     withdrawal of user interest. The procedures allow registered users to withdraw
     their interest in an NSN at any time. It is important that users withdraw their
     interest in a timely manner because DLA screens NSNs that qualify for the DIIP
     through the FLIS to determine whether there are any registered users of the
     NSNs.

     Navy Supply Files. Navy supply records for the 76 obsolete NSNs showed that
     12 of the NSNs had been deleted from the Navy files even though DLA supply
     records had the Navy as a registered user for the NSNs. The records also showed
     that for four of the deleted NSNs, the Navy had deleted those NSNs from its files
     more than 10 years ago. For example, NSN 5940-00-051-7119 (terminal board)
     was deleted from Navy supply files in February 1985, yet the NSN was managed
     as a terminal item by the Defense Supply Center Richmond. Navy personnel
     were unable to explain why the 12 NSNs had been deleted from Navy supply files
     but not from DLA supply files.


Cost of Maintaining Obsolete NSNs

     DLA Costs. In September 1999, the DLA Office of Operations Research and
     Resource Analysis published a study to provide cost data in support of item
     reduction studies. The study included cost avoidance data for eliminating an
     existing NSN from the DLA supply system. The following table shows the
     results of the study.




                                         5
                             Cost of Maintaining NSNs

               Category                                                  Cost

   Average annual cost to maintain a stocked NSN                        $ 400
   Average annual cost to maintain a non-stocked NSN                       200
   Average cost to delete a stocked or non-stocked NSN                      57
   Remaining life-cycle cost avoided by eliminating a stocked NSN        1,495
   Remaining life-cycle cost avoided by eliminating a non-stocked NSN      747

In prior audits, we used the cost study to calculate the potential for putting funds
to better use by deleting NSNs from the DLA supply system. In May 2001, DLA
concurred with our use of the cost study, stating that “the best data available to
determine the cost of deleting NSNs from the system is the DLA Operations
Research and Resource Analysis study and we do not dispute the estimates of cost
avoidance by the team.” In August 2001, DLA amended its comments related to
our use of the cost study and stated that the study should not be used as a basis to
determine cost avoidance associated with retaining inactive NSNs. We disagreed
with DLA and have not resolved our differences on the cost factors for calculating
the potential funds that could be put to better use. DLA is conducting a study to
determine the cost of maintaining an inactive item in the supply system that is
planned to be completed in July 2002. After the study is completed, we will
evaluate the results to determine whether it provides a valid basis to compute and
report the cost avoidance applicable to this report.

Navy Costs. “Naval Air Systems Command Level of Repair Analysis Default
Data Guide,” May 1999, estimates costs related to repair analyses. The Guide
shows a recurring annual cataloging cost of $500 per NSN. The cost estimate was
provided by the Naval Inventory Control Point Philadelphia, Pennsylvania.
Based on the sample results (45 obsolete NSNs still recorded in Navy supply
files), we projected that there were 23,054 obsolete terminal NSNs in the Navy
supply files. We did not include the 19 NSNs that required NATO or foreign
government review in the projection because Navy supply records may be needed
if NSNs are not obsolete. We multiplied the 23,054 NSNs by the $500 per NSN
cost to determine an annual cost of $11.5 million. We calculated funds of about
$69 million could be put to better use over the 6-year Future Years Defense
Program, FYs 2002 through 2007, by removing the obsolete terminal NSNs
identified by this audit from the Navy supply files.




                                        6
Management Comments on the Finding and Audit Response

    Management Comments. DLA stated that the item used as an example in the
    report, NSN 5940-00-051-7119, had been canceled in the FLIS in 1985 and that
    the SAMMS Contracting Technical File has no record of the NSN. DLA also
    stated that our description of one of the criteria for determining whether an NSN
    is eligible for the DIIP, the length of time an NSN had experienced no demand,
    should be changed from 2 years to 5 years.

    Audit Response. The example in the report emphasized the discrepancy between
    DLA supply files and the Navy supply files. NSN 5940-00-051-7119 was in the
    DLA supply system as late as May 2002. The NSN was also in a May 2001
    database of terminal NSNs that DLA provided to us. We were aware that the
    FLIS indicated the NSN was canceled in 1985. That discrepancy between the
    FLIS and DLA supply files existed for more than 16 years, which made it
    apparent to us that DLA procedures to remove obsolete terminal NSNs from its
    supply system were not working as intended.

    DLA uses a more stringent criterion for entering an NSN in the DIIP than the
    DoD requirement. DoD Manual 4140.32 states that an NSN will be eligible for
    the DIIP if it has experienced no demand for 5 years. DLA Manual 4140.2 states
    that an NSN will be eligible for the DIIP if it has experienced no demand for
    2 years. We cited the DLA 2-year criterion in the report because we evaluated the
    DLA DIIP process.


Recommendations, Management Comments, and Audit
  Response

    1. We recommend that the Director, Defense Logistics Agency:

          a. Revise Defense Logistics Agency Manual 4140.2, “Supply
    Operations Manual,” July 1, 1999, to include terminal national stock
    number items with registered users in the Defense Inactive Item Program.

    DLA Comments. DLA nonconcurred, stating that if a terminal item is in an
    issue and substitutability standardization relationship (unconditional
    interchangeability or substitutability between or among items of supply) that
    SAMMS mechanically generates a cancellation when the terminal NSN reaches a
    zero asset position and that including terminal items in the DIIP would duplicate
    an existing cancellation process.




                                         7
Audit Response. DLA comments were not responsive. All terminal NSNs do
not have an issue and substitutability standardization relationship and, therefore,
not all terminal NSNs are subject to the existing cancellation process. Of the
57 obsolete terminal NSNs in our sample, only 8 had an issue and substitutability
standardization relationship. Additionally, it is apparent that for NSNs that do
have an issue and substitutability standardization relationship that the existing
cancellation process is not working as intended because only one of the eight
NSNs had been canceled. The DLA comments were also contrary to DLA
Regulation 4140.66, “Elimination of Duplication in the Management and
Logistics Support of Interchangeable and Substitutable Items,” August 1997. The
regulation states that, under certain conditions, issue and substitutability
standardization items will be included in the DIIP process. We request that DLA
reconsider its position and provide additional comments in response to the final
report.

       b. Maintain and report statistics on how many terminal national
stock number items are deleted from the supply system after the North
Atlantic Treaty Organization and foreign governments review the items.

DLA Comments. DLA nonconcurred, stating that there would be no benefit to
implementing this recommendation. DLA stated that the only costs incurred for
maintaining terminal and inactive NSNs are machine storage costs, which are not
affected by the number of items contained in the system, and a nominal depot cost
if assets are on hand. Once an item is coded terminal, no further supply
management costs are attributable to that item. DLA plans to complete a new
study to quantify the costs to maintain inactive NSNs in the supply system by the
end of July 2002.

Audit Response. DLA comments were partially responsive. DLA provided no
valid data to support its statement that terminal items maintained in the supply
system incur only minimal costs. To the contrary, DLA reported cost avoidance
under its item reduction program of approximately $89 million for the 10-year
period ending FY 2001 that was attributed to deleting unneeded items from its
supply system. However, we will evaluate the updated cost data provided by the
DLA study.

2. We recommend that the Commander, Naval Supply Systems Command
establish controls to ensure that the Navy is removed as a registered user of
Defense Logistics Agency-managed national stock number items that are no
longer required.

Navy Comments. The Navy concurred with the recommendation but
nonconcurred with the estimated $69 million of potential monetary benefits.
Regarding the recommendation, the Navy stated that various actions were taken


                                     8
to identify and delete obsolete NSNs from its supply files and to remove the Navy
as a registered user of the obsolete NSNs. Regarding the estimated $69 million of
potential monetary benefits, the Navy stated that the Navy cost study we used to
compute the monetary benefits relates to the recurring administrative cost of
maintaining a physical item of supply in the wholesale supply system and our
audit addresses the cost to maintain an NSN record. Additionally, based on a
DLA study, the cost to maintain an obsolete terminal NSN in the supply system is
minimal to nonexistent.

Audit Response. Navy comments were responsive to the recommendation.
Regarding the potential monetary benefits, the Navy cost study uses an estimated
value of $500 for annual cataloging costs, which was the amount we used to
compute the potential monetary benefits. The study does not state that the
$500 cost is incurred only if there is a physical item in the supply system. We
hold that the cataloging costs not only are incurred for maintaining a physical
item in the supply system but are also incurred for non-stocked and out-of-stock
NSNs. The Navy’s comments regarding our use of the study were also contrary
to comments it provided on a prior audit report. In response to that report, the
Navy concurred with our use of the cataloging costs to estimate potential
monetary benefits the Navy could realize by deleting DLA-managed inactive
NSNs from the Navy supply system. Additionally, the DLA study referenced by
the Navy is not pertinent to cataloging costs incurred by the Navy. The DLA
study was based on DLA cost data, not Navy cost data. We request that the Navy
reconsider its position and provide additional comments on the potential monetary
benefits in response to the final report.




                                    9
Appendix A. Scope and Methodology
   We reviewed a statistical sample of 110 of 53,455 terminal NSNs managed by
   DLA to determine whether the NSNs were obsolete. The NSNs were taken from
   DLA supply records as of May 2001. We interviewed Navy personnel from the
   Naval Supply Systems Command, Mechanicsburg, Pennsylvania; Naval
   Inventory Control Point offices in Mechanicsburg and Philadelphia,
   Pennsylvania; the Naval Air Systems Command, Patuxent River, Maryland; and
   the Naval Sea Systems Command, Washington, D.C., to determine whether the
   NSNs were obsolete. We interviewed DLA personnel from all three Defense
   supply centers (Columbus, Ohio; Philadelphia, Pennsylvania; and Richmond,
   Virginia) to determine whether the obsolete NSNs identified in the audit could be
   deleted from DLA supply files. We interviewed DLA headquarters personnel to
   determine the rationale for excluding terminally coded items from the DIIP. The
   documents we reviewed included DLA standard operating procedures, DoD and
   DLA guidance, cataloging files, demand histories, and supply records and were
   dated August 1992 through May 2002.

   General Accounting Office High-Risk Area. The General Accounting Office
   has identified several high-risk areas in DoD. This report provides coverage of
   the Defense Inventory Management high-risk area.

   Use of Computer-Processed Data. To identify terminal NSNs, we relied on
   computer-processed data from SAMMS that was provided by DLA. We did not
   perform a formal reliability assessment of the computer-processed data. To the
   extent that we reviewed the data, we found some errors in supply codes, but those
   errors did not preclude the use of other computer-processed data to meet the audit
   objectives and those errors would not change the conclusions in this report.

   Universe and Sample. DLA provided the audit team a database of terminal
   NSNs. The database was provided from May 2001 supply records of NSNs,
   excluding those in the clothing and textile, medical, and subsistence commodities,
   for which the “date of last demand” field in SAMMS either indicated no demand
   for more than 5 years or was blank. That database contained 255,915 NSNs. Of
   the 255,915 NSNs, 103,396 were terminal NSNs with only one registered user.
   Of the 103,396 NSNs, 53,455 were NSNs with the Navy as the only registered
   user.

   Statistical Sampling Methodology. The purpose of the statistical sampling plan
   was to estimate the number of terminal NSNs in the DLA supply system with
   only Navy interest that were obsolete. DLA supply records identified 53,455
   terminal NSNs, for which, as of May 2001, the date of last demand field either
   indicated no demand for more than 5 years or was blank. The sampling design


                                       10
was a stratified attribute design. The universe was distributed across four
locations. SAMMS identified one location as the Defense Electronic Supply
Center, even though the center had been disestablished and management of NSNs
managed by the center had been assumed by the Defense Supply Center
Columbus. The following table shows the distribution of the NSNs from the
universe and our sample at each of the four locations (Defense Electronic Supply
Center [DESC], Defense Supply Center Columbus [DSCC], Defense Supply
Center Philadelphia [DSCP], and Defense Supply Center Richmond [DSCR]).

                       Universe and Sample by Location

       Location                      Universe               Sample

        DESC                         18,050                   35
        DSCC                          5,554                   20
        DSCP                         17,580                   30
        DSCR                         12,271                   25

         Total                       53,455                 110

Of the 110 NSNs reviewed, 57 were obsolete and 19 required review for current
NATO or foreign government requirements. Based on the sample results, we
projected with a 95-percent confidence level that between 22,172 and
33,875 NSNs of the 53,455 NSNs in the universe were obsolete and actions
should be taken to delete the NSNs from the supply system. The midpoint of that
projected range is 28,023 NSNs. Likewise, we projected with a 95-percent
confidence level that between 3,810 and 12,959 of the NSNs needed to be
reviewed for NATO or foreign government requirements before the NSNs could
be deleted. The midpoint of that projected range is 8,384.

Of the 57 NSNs that were obsolete, 45 were still recorded in the Navy supply
files. Based on the sample results, we projected with a 95-percent confidence
level that between 17,788 and 28,319 NSNs of the 53,455 in the universe were
obsolete and still recorded in the Navy supply files. The midpoint of that
projected range is 23,054 NSNs.

Use of Technical Assistance. Personnel in the Quantitative Methods Division,
Office of the Assistant Inspector General for Auditing of the Department of
Defense developed the statistical sampling plan and selected the sample for this
audit.

Audit Dates and Standards. This audit was performed from May 2001 through
May 2002 in accordance with generally accepted government auditing standards.




                                    11
    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.


Management Control Program Review

    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of DLA and Navy management controls over reviewing terminal NSNs.
    We reviewed DLA and Navy self-evaluations applicable to those controls.

    Adequacy of Management Controls. As defined by DoD Instruction 5010.40,
    we identified material management control weaknesses at DLA and the Navy.
    DLA excluded terminal NSNs from the DIIP and there was no control to
    systematically identify terminal NSNs for item manager review. The Navy was
    not withdrawing its user interest when there were no future requirements for
    DLA-managed NSNs. Recommendations 1. and 2. in this report, if implemented,
    will correct the material weaknesses identified by the audit. Correction of the
    material management control weaknesses could result in potential monetary
    benefits for the Navy of about $69 million over the 6-year Future Years Defense
    Program, FYs 2002 through 2007. The potential monetary benefits for DLA have
    not been calculated because of differences with DLA in the cost factors that
    should be used in the calculation. The full extent of the monetary benefits will be
    quantifiable after the obsolete NSNs identified by this audit are deleted from DLA
    supply files and after NSNs with no NATO or foreign government requirements
    are identified and deleted from both the Navy and DLA supply systems. A copy
    of the report will be provided to the senior official responsible for management
    controls in DLA and the Navy.

    Adequacy of Management’s Self-Evaluation. DLA did not identify reviewing
    terminal NSNs as an assessable unit and, therefore, did not identify or report the
    material management control weaknesses identified by the audit.

    The Navy did not identify withdrawal of user interest in DLA-managed terminal
    NSNs as an assessable unit and, therefore, did not identify or report the material
    management control weaknesses identified by the audit.




                                        12
Prior Coverage

    During the past 5 years, the Inspector General of the Department of Defense
    (IG DoD) has issued several reports discussing obsolete NSNs. Unrestricted
    IG DoD reports can be accessed over the Internet at
    http://www.dodig.osd.mil/audit/reports.

IG DoD
    IG DoD Report No. D-2002-060, “Management of Terminal Items at the Defense
    Logistics Agency,” March 13, 2002

    IG DoD Report No. D-2001-187, “Defense Logistics Agency Items Supporting
    Obsolete Army Weapon Systems,” September 27, 2001

    IG DoD Report No. D-2001-131, “Items Excluded From the Defense Logistics
    Agency Defense Inactive Item Program,” May 31, 2001

    IG DoD Report No. D-2001-035, “Management of Potentially Inactive Items at
    the Defense Logistics Agency,” January 24, 2001

    IG DoD Report No. D-2000-185, “Allegations to the Defense Hotline Concerning
    Management of Obsolete Reparable Items,” September 7, 2000




                                       13
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Commander, Naval Supply Systems Command
  Commander, Naval Inventory Control Point
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Logistics Agency
   Commander, Defense Supply Center Columbus
   Commander, Defense Supply Center Philadelphia
   Commander, Defense Supply Center Richmond

Non-Defense Federal Organization
Office of Management and Budget




                                          14
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          15
Defense Logistics Agency Comments




                     17
18
19
Department of the Navy Comments




                    20
21
22
Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Tilghman A. Schraden
Terrance P. Wing
John W. Henry
Paula A. Richardson
Michael A. Talevi
Lusk F. Penn
Elizabeth L.N. Shifflett
